No. 20-668

In the
Supreme Court of the United States

NlNAALLISON
Petitioner,
V.

DR. ROBERT DAR-THE Liou, DE. TUAN T. LAM,
Respondents.

ON PETITION FORA WRIT OF CERTIORARI
TO THE COURT OF APPEAL OF THE STATE OF CALIFORNIA,
SECOND APPELLATE DISTRICT

PROOF OF SERVICE OF RESPONDENT'S BRIEF
IN OPPOSITION TO PETITION
FOR A WRIT OF CERTIORARI
Richard J. Ryan - SBN 106587
rick@rjryanlaw.com.
Aaron J. Weissman - SEN 097231

Counsel of Record
aaron@rjryanlaw.com

R.J. RYAN LAW, APC
500 North Brand Boulevard, Suite 950

Glendale, CA 91203
Telephone: (818) 956-3600
Facsimile: (818) 956-3936
Attorneys for Respondents

ROBEET DAR-THE LlOU, M.D. AND TUAN T. LAM, IM.D.

No. 20-668

In the
Supreme Court of the United States

NlNAALLISON
Petitioner,
V.

DR. ROBERT DAE-THE Liou, DR. TUAN T. LAM,
Respondents.

PROOF OF SERVICE OF RESPONDENTS BRIEF IN OPPOSITION TO
PETITION FOR A WRIT OF CERTIORARI AND RESPONDENT'S
CERTIFICATE OF WORD COUNT

I am employed in the County of Los Angeles, State of California. I am. over

the age of 18 and not a party to the within action; my business address is 500 North
Brand Boulevard, Suite 950, Glendale, California 91203.
On December 10, 2020, I served the foregoing documents described as (1)

RESPONDENT'S BRIEF IN OPPOSITION TO PETITION FOR A WRIT OF
CERTIORARI and (2) RESPONDENT'S CERTIFICATE OF WORD COUNT on
the interested parties in this action addressed as follows:
Zulu Ali, Esq. Attorneys for Petitioner
2900 Adams Street, Suite C-13 (951) 782-8722

Riverside, CA 92504 Fax: (951) 346-9101
Said service was made by placing true copies thereof enclosed in a sealed
envelope addressed as stated above and placing the envelope for collection and
mailing on the date and at our business address following our ordinary business

practices. I am readily familiar with this business's practice for collecting and
processing correspondence for mailing. On the same day that correspondence is

placed for collection and mailing, it is deposited in the ordinary course of business
with the United States Postal Service in a sealed envelope with postage fully prepaid.
Executed on December 10, 2020 at Glendale, California.
I declare under penalty of perjury that the foregoing is true and correct.

t/^/y^y fS' 2^77/AY
Milca D. Wagner

